THE SUPREME COURT OF THE UNITED STATES
A.S. a 9-year old child with Autism Spectrum Disorder (ASD) entitled
to Special Education and Related services per IDEA
represented by his parents E.S. Pro se and R.S. Pro se

Plaintiffs -Petitioners

PROOF OF SERVICE:
APPLICATION TO
EXCEED WORD LIMIT
SET FOR PETITION
FOR A WRIT OF
CERTIORARI DATE
DUE OCTOBER 5, 2020

-against-

Case No. 1153-CV-501

Board of Education Shenendehowa Central School District,
Interim Commissioner Betty Rosa, of The University of the State of New York
Defen dan ts -Respon den ts

I certify that I served this application to exceed work limit set for petition for a
Writ of Certiorari to the following parties by sending the application to them via
USPS on Thursday September 24, 2020.

Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

1 of 2

'Jm

Susan T. Johns, Esq.
P: (315) 437-7600
Ferrara Fiorenza, PC
5010 Campuswood Dr.
East Syracuse, NY 13057
Attorney for the Shenendehowa Central School District

Michael G. McCartin
P (518) 776-2620
Assistant Attorney General
The Capitol
Albany, NY 12224-0341
Attorney for Betty Rosa, Commissioner of the NYSED

Respectfully Submitted,

Thursday September 24, 2020

7"

R.S. Pro Se o

alf of A.S.

2 of 2

